CERTIFICATE OF SERVICE
NO. 20-318
Equal Means Equal, et al.
Petitioner(s)
v.
David S. Ferriero, Archivist of the United States
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the EIGHTY
DIVERSE AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S), by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Wendy J. Murphy
New England Law | Boston
154 Stuart Street
Boston, MA 02116
(617) 422-7410
Wmurphy@nesl.edu
Counsel for Equal Means Equal, et al.

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for David S. Ferriero

Lucas DeDeus

October 2, 2020
SCP Tracking: Rockey-P.O. Box 656-Cover Cream

